 AUDIT OF THE OFFICE OF JUSTICE PROGRAMS
      NATIONAL INSTITUTE OF JUSTICE
          GRANT AWARDED TO THE
JACKSON COUNTY MEDICAL EXAMINER’S OFFICE
          KANSAS CITY, MISSOURI

         U.S. Department of Justice
       Office of the Inspector General
                Audit Division


        Audit Report GR-50-11-006
             September 2011
       AUDIT OF THE OFFICE OF JUSTICE PROGRAMS
            NATIONAL INSTITUTE OF JUSTICE
                GRANT AWARDED TO THE
      JACKSON COUNTY MEDICAL EXAMINER’S OFFICE
                KANSAS CITY, MISSOURI

                          EXECUTIVE SUMMARY

      The U.S. Department of Justice, Office of the Inspector General, Audit
Division, has completed an audit of an Office of Justice Programs (OJP),
National Institute of Justice (NIJ) grant awarded to the Jackson County
Medical Examiner’s Office (JCMEO). JCMEO was awarded $125,000 under
grant number 2009-CD-BX-0088 to improve the quality and timeliness of
forensic science and medical examiner services and to eliminate backlogs in
the analysis of forensic evidence, including controlled substances, firearms
examination, forensic pathology, latent prints, questioned documents,
toxicology, and trace evidence.

      JCMEO is located in Kansas City, Missouri. JCMEO provides death
investigation services to the city of Kansas City, Missouri; Jackson County;
the surrounding counties of Platte, Cass, and Clay; and other Missouri
counties on a referral basis. JCMEO also provides several other services,
including death certificates and autopsy reports.

      The objective of our audit was to review performance in the following
areas: (1) internal control environment; (2) drawdowns; (3) grant
expenditures, including personnel costs; (4) budget management and
control; (5) local matching funds; (6) accountable property; (7) indirect
costs; (8) program income; (9) financial status and progress reports;
(10) grant requirements; (11) program performance and accomplishments;
and (12) monitoring of sub-grantees and contractors. We determined that
local match, indirect costs, program income, and oversight of sub-grantees
and contractors were not applicable to this grant.

      As of February 28, 2011, the grantee had drawn down the full award
amount of $125,000 and had recorded expenditures of $125,000 in its grant
accounting records. We examined JCMEO’s accounting records, required
reports, and operating policies and procedures, and we identified internal
control, accounting, and reporting deficiencies. Specifically we found:

      •   The grant award ended September 30, 2010, and the grantee
          completed all grant activities early and filed its final Financial Status
          Report (FSR) on September 15, 2010. However, several journal
         entries were entered into the grant accounting records in
         February 2011, almost 5 months after the grant ended and the final
         FSR was filed. Additionally, we noted that several of the correcting
         journal entries were made after the grantee received our notice of
         audit on February 18, 2011.

     •   The last and only grant drawdown was made October 8, 2010,
         almost 1 month after the final FSR, which was filed on
         September 15, 2010. As noted above, due to untimely posting of
         grant expenditures, the grantee’s accounting records did not
         support the amount drawn down until after the grantee received
         notice of our audit.

     •   Although FSRs and progress reports were generally filed on a timely
         basis, the progress report for the period ended June 30, 2010, was
         filed 17 days late. In addition, all but the final FSRs were
         inaccurate because they did not include any expenditures occurring
         during the reporting period, as required by the OJP guidelines.
         Instead, the grantee reported all expenditures on the final FSR.

      Our report contains three recommendations to address the preceding
issues, which are discussed in detail in the Findings and Recommendations
section of the report. Our audit objective, scope, and methodology are
discussed in Appendix I of the report.




                                    - ii –
                           TABLE OF CONTENTS



INTRODUCTION ........................................................................ 1
     Background.......................................................................... 1
     Our Audit Approach............................................................... 2
FINDINGS AND RECOMMENDATIONS ....................................... 4
     Accounting and Internal Controls ............................................ 4
     Grant Drawdowns ................................................................. 5
     Grant Expenditures ............................................................... 8
     Budget Management and Control ............................................ 9
     Accountable Property ............................................................ 9
     Grant Reporting .................................................................... 9
     Compliance with Grant Requirements ..................................... 11
     Program Performance and Accomplishments ........................... 11
     Views of Responsible Officials ................................................ 12
     Recommendations ............................................................... 12
APPENDIX I - OBJECTIVE, SCOPE, AND METHODOLOGY ......... 13

APPENDIX II - AUDITEE RESPONSE ....................................... 15

APPENDIX III - U.S. DEPARTMENT OF JUSTICE RESPONSE .... 17

APPENDIX IV - OFFICE OF THE INSPECTOR GENERAL
                ANALYSIS AND SUMMARY OF ACTIONS
                NECESSARY TO CLOSE THE REPORT .......... 19
                                INTRODUCTION

      The Office of the Inspector General, Audit Division, has completed an
audit of an Office of Justice Programs (OJP), National Institute of Justice
(NIJ) grant awarded to the Jackson County Medical Examiner’s Office
(JCMEO), located in Kansas City, Missouri. JCMEO was awarded $125,000
under grant number 2009-CD-BX-0088 to improve the quality and timeliness
of forensic science and medical examiner services and to eliminate backlogs
in the analysis of forensic evidence, including controlled substances, firearms
examination, forensic pathology, latent prints, questioned documents,
toxicology, and trace evidence.

      As shown in the table below, JCMEO was awarded a total of $125,000
to implement the grant program.

    NATIONAL INSTITUTE OF JUSTICE GRANT AWARDED TO THE
         JACKSON COUNTY MEDICAL EXAMINER’S OFFICE
              AWARD
                       AWARD
AWARD NUMBER  START             AWARD        OBJECTIVE
                     END DATE
               DATE             AMOUNT
                                                         To improve the quality and
                                                            timeliness of forensic
                                                             science and medical
2009-CD-BX-0088    10/01/2009    09/30/2010   $125,000    examiner services and/or
                                                         to eliminate backlogs in the
                                                              analysis of forensic
                                                                  evidence.
Source: Office of Justice Programs

Background

       Since 1984, OJP has provided federal leadership in developing the
nation's capacity to prevent and control crime, improve the criminal and
juvenile justice systems, increase knowledge about crime and related issues,
and assist crime victims. NIJ was created in 1969 and is the research,
development, and evaluation agency of the U.S. Department of Justice.
NIJ’s overall goals are to: (1) foster science-based criminal justice practice,
(2) translate knowledge to practice, (3) advance technology, (4) work across
disciplines, and (5) adopt a global perspective.

       JCMEO, a component of Jackson County government, is located in
Kansas City, Missouri. JCMEO provides death investigation services to the
city of Kansas City, Missouri; Jackson County; the surrounding counties of
Platte, Cass, and Clay; and other Missouri counties on a referral basis.
JCMEO is made up of five forensic divisions, which are Administration,
Operations, Investigations, Autopsy, and Pathology. JCMEO also provides
death certificates, autopsy reports, and forms for reporting deaths.

Our Audit Approach

      We tested compliance with what we consider to be the most important
conditions of the grant. Unless otherwise stated in our report, the criteria
we audit against are contained in the Office of Justice Programs Financial
Guide, the Code of Federal Regulations, Office of Management and Budget
(OMB) Circulars, and the award documents. We tested JCMEO’s:

     •   Accounting and Internal Controls to determine whether the
         grantee had sufficient accounting and internal controls in place for
         the processing and payment of funds and controls were adequate to
         safeguard grant funds and ensure compliance with the terms and
         conditions of the grants;

     •   Grant Drawdowns to determine whether grant drawdowns were
         adequately supported in accordance with federal requirements;

     •   Grant Expenditures to determine the accuracy and allowability of
         costs charged to the grants;

     •   Budget Management and Control to examine the amounts
         budgeted and the actual costs for each approved cost category and
         determine if the grantee deviated from the approved budget, and if
         so, if the grantee received the necessary approval;

     •   Accountable Property to determine if property was correctly
         accounted for and used in accordance with the terms and conditions
         of the grant.

     •   Financial Status Reports (FSR) and Progress Reports to
         determine whether the required reports were submitted on time
         and accurately reflected grant activity; and

     •   Accomplishment of Grant Requirements and Objectives to
         determine if the grantee met or is capable of meeting the grant’s
         objectives and whether the grantee collected data and developed
         performance measures to assess accomplishment of the intended
         objectives.

      We also performed limited work and confirmed that JCMEO did not
receive reimbursement for indirect costs, did not generate or receive


                                    -2 -
program income, was not required to contribute any local matching funds,
and that funds were not awarded to sub-grantees or contractors. We
therefore performed no testing in these areas.




                                   -3 -
              FINDINGS AND RECOMMENDATIONS

      We determined that JCMEO had fulfilled the grant objectives.
      However, our audit revealed internal control weaknesses, as
      well as accounting and reporting deficiencies. Specifically, we
      found one progress report was filed 17 days late and FSRs did
      not properly report actual period expenditures as required by
      OJP Guidelines. Rather, all expenditures were reported on the
      final FSR. We also noted that several correcting journal entries
      were made by the auditee after it received notice of our audit
      in February 2011 - 5 months after the grant ended and the
      final FSR was filed on September 15, 2010. As a result, the
      last and only grant drawdown, which was made on October 8,
      2010, almost 1 month after the final FSR was filed in
      September 2010, was not supported by the grant accounting
      ledgers.

      We performed audit work at JCMEO in Kansas City, Missouri, where we
obtained an understanding of the accounting system and reviewed a sample
of grant expenditures. We reviewed the criteria governing grant activities,
including the OJP Financial Guide and relevant OMB Circulars and the Code
of Federal Regulations. In addition, we reviewed grant documents, including
the application, award, budgets, and financial and progress reports. We also
interviewed key JCMEO personnel.

Accounting and Internal Controls

      According to the OJP Financial Guide, grant recipients are required to
establish and maintain accounting and internal control systems to account
accurately for funds awarded to them. Further, the accounting system
should ensure, among other things, the identification and accounting for
receipt and disposition of all funds, funds applied to each budget category
included in the approved award, expenditures governed by any special and
general provisions, and non-federal matching contributions.

       We reviewed JCMEO’s financial management system and its policies
and procedures to assess JCMEO’s risk of non-compliance with laws,
regulations, guidelines, and terms and conditions of the grant. To further
assess risk, we obtained an understanding of the reporting process,
examined grant records and reports prepared by JCMEO, and interviewed
JCMEO personnel regarding award charges. Our testing revealed internal
control, accounting, and reporting deficiencies that are explained in more
detail in the following sections.




                                     -4 -
Financial Management System

       The OJP Financial Guide requires grantees to establish and maintain a
system of accounting and internal controls that adequately identifies and
classifies grant costs. The system must include controls to ensure that funds
and other resources are used optimally and expenditures of funds are in
conformance with the general and special conditions applicable to the
recipient. Further, the OJP Financial Guide states that grantees should
establish and maintain program accounts that will enable, on an individual
basis, the separate identification and accounting of the receipt and
disposition of all funds and the application of all funds to each budget
category included within the approved award.

       We did not test the overall financial management system for Jackson
County as a whole, but we conducted a limited review and performed testing
in areas related to the NIJ award received by JCMEO. We also interviewed
staff and management, and we observed accounting activities and processes
to further assess risk. A review of JCMEO’s financial management system
indicated that there is a sufficient separation of duties and that the operating
procedures appear adequate. However, we found expenditures were not
recorded in a timely manner in order to reflect the current expenses for a
reporting period. This is discussed in detail in the Grant Drawdowns section
of this report.

Audit

      JCMEO is a unit of county government, which was included in a
county-wide audit conducted by an independent accounting firm for the year
ended December 31, 2009. The results of this audit were reported in the
Single Audit Report obtained from the Jackson County Finance Department.
The Single Audit Report was prepared under the provisions of Office of
Management and Budget Circular A-133. We reviewed the independent
auditor’s assessments, which disclosed no weaknesses, noncompliance
issues, or cross-cutting findings related to JCMEO grant management.
Additionally, JCMEO management stated that no other independent annual
financial report of JCMEO had been performed.

Grant Drawdowns

      Jackson County’s accounting system is web-based, and the various
county departments submit information to the system. The information is
then reviewed by the appropriate county oversight department (such as
Payroll or Purchasing). If approved, the information is posted by the Finance
Department to the specified grant accounting records.


                                     -5 -
       We reviewed JCMEO’s process for requesting reimbursement from OJP
for its grant-related costs to ensure that the requests were adequately
supported by official accounting records and were in accordance with federal
requirements. The Grant Manager stated that he had been instructed by
another Jackson County employee not to report any expenditures on the
interim quarterly FSRs for the periods in which they occurred, but rather to
report all grant expenditures on the final FSR, and this is the method that
the Grant Manager utilized. To receive grant funds from OJP in
reimbursement of costs JCMEO paid, a staff person in the county Finance
Department would create reimbursement requests based on expenditures
entered into the FSR by the Grant Manager. Consequently, no drawdowns
were made under this award until the final FSR, which reflected that all
expenditures had been incurred, was submitted.

      Our reconciliation of the grantee’s drawdowns and official grant
records also revealed that the Jackson County Finance Department made
postings to the grant ledger through the end of the county’s fiscal year,
which was over 3 months after the final FSR was filed on September 15,
2010. 1 Further, we noted that the grantee made additional postings to its
accounting ledger after receiving notice of our audit in February 2011,
5 months after the filing of the final FSR, 4 months after full drawdown of
the award amount, and almost 2 months after its fiscal year end. As shown
in the following table, we reviewed the accounting records and compared
expenditures to the actual drawdowns and found that the total drawdowns
matched the total amount of grant expenditures only after final entries were
posted and adjusted.




     1
         Jackson County’s fiscal year runs from January 1 through December 31.



                                          -6 -
   COMPARISON OF DRAWDOWNS TO ACCOUNTING RECORD ACTIVITY
                                 CUMULATIVE
                                  EXPENSES
                                  POSTED TO     AMOUNT
                                 ACCOUNTING   DRAWDOWN
      DATE          EVENT          RECORDS      PER OJP
   09/15/2010          Final FSR filed          $    93,332                  0
   10/08/2010            Drawdown                    98,325          $125,000
   12/31/2010         Grantee FY end                104,256                  0
   02/23/2011      Last ledger updates              125,000                  0
      Total:                                     $125,000           $125,000
  Source: Office of Justice Programs and Jackson County Finance Department

      Consequently, when we reviewed the grant accounting records and
compared expenditures to the amounts drawn down, we found that the
drawdowns did not match the recorded expenditures because of the
grantee’s practice of not reporting period costs on the FSRs combined with
the untimely accounting ledger postings on the part of the Jackson County
Finance Department. It was only after numerous postings in February 2011
that total grant accounting ledger expenses equaled the amount drawn down
on October 8, 2010. Therefore, at the time of our audit, there were no
excess drawdowns.

       The Jackson County Finance Department Senior Accountant stated that
the grant accounting records should have been balanced at the end of the
fiscal year. She also said that she identified several necessary correcting
entries at that time but that it is only possible for the system to post
correcting entries on the date posted and not to the prior quarters when the
grant was open. Although requested, no explanation was provided for why
the grant ledger was not balanced to agree with funds drawn down: (1) at
the time the final FSR was submitted, (2) when the total grant funds were
drawn down almost a month later even though at that time the drawdown
exceeded the concurrent ledger balances, (3) when year-end correcting
journal entries were made over 3 months later, or (4) until our notice of a
pending grant audit was given almost 5 months after the end of the grant
period was provided.

       In our opinion, JCMEO should establish procedures to ensure that all
grant-related expenditures are recorded in the grant accounting records as
they occur, FSRs are prepared based on official accounting record
information, and grant drawdown requests are based only on actual,
recorded grant expenditures. The Grant Manager stated that at the time of
this award he had not received any training in grant management and


                                         -7 -
oversight and relied on other Jackson County and OJP staff for direction. He
stated that he believes the above issues were caused by the incorrect
instructions he received. Subsequent to the award’s end, we confirmed that
he requested and attended a federal grant management class.

Grant Expenditures

      The OJP Financial Guide requires that expenditures be accounted for
and adequately supported. JCMEO’s approved grant budget included the
following:

                JACKSON COUNTY MEDICAL EXAMINER’S OFFICE
                    APPROVED GRANT BUDGET AMOUNTS
                        AND DESCRIPTION OF COSTS
                        APPROVED
                         REVISED
   COST CATEGORY         BUDGET            DESCRIPTION OF PLANNED EXPENDITURES


      Personnel          $29,559        Salary for the hiring of one medical examiner

   Fringe Benefits        15,055                   Standard fringe benefits
                                      Cost of travel to training classes for hired medical
        Travel            1,777                             examiner

       Supplies              0                          None planned

 Contract/Consultant         0                          None planned
                                         Training classes and examinations for hired
        Other             10,387                      medical examiner
                                       Purchase and shipping costs of various items of
                                         equipment, including autopsy cart tops and
                                           chassis, evidence drying cabinet, x-ray
     Equipment            68,222            computers, microscope, and camera

     Construction            0                          None planned

    Indirect Costs           0                          None planned


   FEDERAL FUNDS        $125,000

    LOCAL MATCH             $0
  TOTAL PROJECT
      COSTS             $125,000
Source: Office of Justice Programs and Jackson County Medical Examiner’s Office

      To determine the accuracy and allowability of costs charged to the
grant, we reviewed $82,250 (66 percent) of the $125,000 in costs billed to
the grant as of February 28, 2011. This included 100 percent of direct


                                           -8 -
expenditures and equipment, totaling $78,783, and $3,467 in personnel and
fringe benefits. We found that generally the transactions we reviewed were
properly authorized, classified, supported, and charged to the grant. We
identified no reportable exceptions.

Budget Management and Control

      According to the OJP Financial Guide, a grantee may transfer funds
between approved budget categories without OJP approval if the total
transfers are 10 percent or less than the award amount. Requests for
transfers of funds between budget categories of over 10 percent must be
submitted to OJP for approval. We noted that budget shifts occurred in
approved budget categories and were within the prescribed allowance.

Accountable Property

      OJP Guidelines require accountable property purchased with grant
funds be so identified in the grantee’s official inventory. Jackson County
requires any item in excess of $5,000 to be listed in the county’s
accountable property inventory. JCMEO’s actual expenditures for equipment
totaled $67,194 for 11 purchases of property. We reviewed a list of JCMEO’s
accountable grant property, and we noted that the two items purchased with
grant funds, and which met the $5,000 valuation threshold, were listed on
the county’s accountable property list and properly identified as having been
purchased with federal funds. We inspected all equipment items purchased
with federal funds and determined they were all accounted for, in use, and
properly identified as purchased with grant funds.

Grant Reporting

      The OJP Financial Guide states that two types of reports are to be
submitted by the grantee. Financial Status Reports (FSR) provide
information on monies spent and the unobligated amounts remaining in the
grant. 2 Program progress reports provide information on the status of
grant-funded activities and other pertinent information.

Financial Status Reports

      The OJP Financial Guide states that financial reports filed after
October 1, 2009, are due within 30 days after the end of the calendar
quarter. We reviewed all four quarters for which a report was required and

       2
         The grantee filed Financial Status Reports to report its grant expenditures. These
reports have now been replaced by Federal Financial Reports.


                                            -9 -
determined that all four required reports generally were submitted within the
required timeframe.

      We also reviewed all of the submitted FSRs for accuracy and found
that the reports did not accurately reflect the grant-funded expenditures. As
shown in the following table, project expenditures began in the reporting
period ending December 31, 2009, and continued through and beyond the
period ending June 30, 2010, although the FSRs during those periods
reported no expenditures.

                  FINANCIAL STATUS REPORT ACCURACY
                                                       CUMULATIVE
                        GRANTEE                       EXPENDITURES
                       QUARTERLY                          PER
FSR     FSR PERIOD      LEDGER         EXPENDITURES    ACCOUNTING
No.      END DATE      EXPENSES          PER FSR        RECORDS      DIFFERENCE
 1    12/31/2009           $11,075               $0       $11,075      $11,075
 2    03/31/2010             6,933                0        18,008       18,008
 3    06/30/2010            33,863                0        51,871       51,871
 4    09/30/2010           $46,453         $125,000       $98,325      $26,675
Source: Office of Justice Programs and JCMEO

Categorical Assistance Progress Reports

      According to the OJP Financial Guide, Categorical Assistance Progress
Reports are due semiannually, on January 30 and July 30 for the life of the
grant. As shown in the following table, we reviewed all 3 required reports
and found that 1 report was filed 17 days after the due date. The grant
manager stated he believed this occurred because he has no backup and he
was out of the office. We reviewed the three progress reports submitted as
of February 28, 2011, and determined that the data in two reports was
supported by documentation about the grant-funded activities. The other
report was for the first quarter of the award, and the Grant Manager
indicated no material grant-related activity occurred during that quarter.




                                        - 10 -
                       TIMELINESS OF PROGRESS REPORTS

      RPT                                                         DATE             DAYS
      NO.        REPORT PERIOD                DUE DATE         SUBMITTED           LATE
       1      10/01/09 – 12/31/09            01/30/2010         Unknown 3           0
       2      01/01/10 – 06/30/10            07/30/2010        08/16/2010           17
       3      07/01/10 – 12/31/10            12/29/2011        08/19/2010           0
     Source: Office of Justice Programs

Compliance with Grant Requirements

       We reviewed the special conditions of the grant award and found five
actionable special requirements. These included submission of the FSRs,
Categorical Assistance Progress Reports, and related final reports in a timely
manner. The submission of these reports is discussed above under the
Grant Reporting section. The grantee was also required to submit a revised
budget and register with the Central Contractor Registration (CCR)
database. Grantee compliance with these two special conditions was
confirmed by OJP in Grant Modifications 1 and 2. The remaining special
conditions dealt with rules and regulations. Except as noted within the
report, no other instances of non-compliance with rules and regulations were
identified.

Program Performance and Accomplishments

     According to the grant application, the purpose of the grant was to
improve current operations in the timeliness, efficiency, cost effectiveness,
and quality of the forensic services provided by the Jackson County Medical
Examiner’s Office. These objectives included:

       •    Utilize the full storage capacity of the facility;

       •    Reduce the time necessary to complete an autopsy;

       •    Make the x-ray viewing, diagnosing, and autopsy processes more
            efficient; and

       •    Increase security and integrity of the evidence on clothing articles. 4

       3
         We were unable to obtain from GMS or the grantee the specific date the report was
submitted. However, there were no holds on the funds for the grantee, which indicated that
the report was submitted on time.
       4
          According to JCMEO officials, the faster clothing is dried, the sooner it can be sent to
a laboratory for analysis. Additionally, clothing drying in the open air has a greater potential
for contamination from other evidence drying nearby.


                                             - 11 -
      According to the Grant Manager, there were no changes in the
objectives outlined the grant application. We made observations, reviewed
documentation, and interviewed JCMEO staff to determine whether the grant
objectives that were identified in the grant applications were being met.
Overall, we found that JCMEO had fulfilled the goals and objectives of the
grant by hiring an additional medical examiner and purchasing the needed
equipment to improve overall efficiency of JCMEO operations.

Views of Responsible Officials

       We discussed the results of our review with grantee officials
throughout the audit and at a formal exit conference, and we have included
their comments as appropriate. The JCMEO Grant Manager stated that due
to his lack of training and limited knowledge about grants and record-
keeping procedures, he had relied on staff at OJP and the county Finance
Department to identify problems. Subsequent to the award he obtained
grant management training.

Recommendations

       Although the award period has ended, the oversight agency of JCMEO
is in receipt of other DOJ awards and continues to be involved in posting to
other federal grant accounting records as well as requesting reimbursements
based on FSRs. Therefore, we recommend that OJP:

     1.    Ensure that JCMEO implements procedures to comply with OJP
           requirements that FSRs accurately report grant-related
           expenditures posted to the grant accounting records during the
           reporting period.

     2.    Require that JCMEO establish procedures to ensure that all
           grant-related drawdown requests are based only on actual,
           recorded grant expenditures.

     3.    Request the JCMEO implement a backup plan for grant managers
           to ensure all steps during the grant are timely and properly
           completed if the grant manager is unavailable for an extended
           period of time.




                                   - 12 -
                                                               APPENDIX I


            OBJECTIVE, SCOPE, AND METHODOLOGY

      The purpose of this audit was to determine whether reimbursements
claimed for costs under the grant were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the grant, and to determine program performance and
accomplishments.

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives.

      Our audit concentrated on, but was not limited to, the inception of the
grant on October 1, 2009, through September 30, 2010. This was an audit
of the National Institute of Justice grant number 2009-CD-BX-0088 awarded
to the Jackson County, Missouri, Medical Examiner’s Office (JCMEO), for
$125,000. In conducting our audit, we reviewed Financial Status Reports
and Progress Reports as well as performed testing of grant expenditures,
including transactions to support accounting records. Our testing was
conducted by judgmentally selecting a sample of expenditures, along with a
review of internal controls and procedures for the grant that we audited.
Judgmental sampling design was applied to obtain broad exposure to
numerous facets of the grant reviewed, such as dollar amounts, expenditure
category, and risk. This non-statistical sample design does not allow for
projection of the test results to all grant expenditures or internal controls
and procedures. In total, the grantee had expended and drawn down the
entire award amount of $125,000 as of February 23, 2011. Excluding bi-
weekly payroll information, the remaining ledger transactions and equipment
purchases were few in number, and we reviewed 100 percent of the
recorded non-personnel grant expenditures, which totaled $78,783.

      The objective of our audit was to review performance in the following
areas: (1) internal control environment; (2) drawdowns; (3) grant
expenditures, including personnel and indirect costs; (4) budget
management and control; (5) property management; (6) financial status
and progress reports; (7) grant requirements; and (8) program performance
and accomplishments. We determined that local matching costs, indirect
costs, program income, and the monitoring of sub-grantees and contractors
were not applicable to this grant.



                                   - 13 -
     In total, the grantee had drawn down $125,000 and recorded grant
expenditures of $98,324 as of October 31, 2010. As noted above, excluding
bi-weekly payrolls, we reviewed 100 percent of the accounting ledger entries
and equipment purchases. We reviewed $3,467 in payroll-related
expenditures.

      JCMEO is a unit of county government, which was included in county-
wide audit conducted by KPMG for the year ended December 31, 2009. The
results of this audit were reported in the Single Audit Report obtained from
the Jackson County Finance Department. The Single Audit Report was
prepared under the provisions of Office of Management and Budget Circular
A-133. We reviewed the independent auditor’s assessments, which
disclosed no weaknesses or noncompliance issues directly related to JCMEO.
Additionally, no other independent annual financial report was performed on
JCMEO. We performed limited testing of source documents to assess the
timeliness and accuracy of FSRs, reimbursement requests, expenditures,
and progress reports; evaluated performance to grant objectives; and
reviewed the grant-related internal controls over the financial management
system. We tested invoices as of September 30, 2010. However, we did
not test the reliability of the financial management system as a whole and
reliance on computer-based data was not significant to our objective.




                                   - 14 -
                                                                           APPENDIX II


                                AUDITEE RESPONSE

MARY H. DUDLEY, M.D.
JACKSON COUNTY MEDICAL EXAMINER                                            (816) 88 1-6600
  FAX (816) 404-1345
660 East Twenty Fourth Street
Kansas City, Missouri 64108



August 24rd, 2011

Carol S. Taraszka
Regional Audit Manager
U.S. Department of Justice
Office of Inspector General
500 West Madison Street, Suite 1211
Chicago, Illinois 60661-2590

        In connection with your audit of the Office of Justice Programs' Grant Number
2009-CD-BX-0088 awarded to the Jackson County Medical Examiner's Office, I
understand the audit objectives are to review performance in the following areas: (1)
internal control environment; (2) management of sub-recipients; (3) cash management;
(4) grant expenditures, including personnel and indirect costs; (5) supplanting; (6)
property management; (7) program income; (8) financial status and progress reporting;
(9) grant requirements; (10) match, and (11) program performance and accomplishments.

        At the conclusion of this audit, this office had a much better grasp of management
of a grant. Our office did comply with the regulations of the grant and some of our
downfalls during this grant period were done due to misinformation that I received from
my program manager in Washington DC. When I had a question, I always called my
program manager and asked for the correct way to do something as this was our first
grant and I did not want to be in violation. The draw downs were not done at the time of
the purchase because I was told to draw it down all at once at the end of the grant and not
after each purchase. I did not complete the draw downs; this was done by our county
person who handles the money. We submitted a purchase order at the time we wanted it
and the county handled the transfer of any monies.

        As for the late performance reports and financial reports, these were completed
when I received an email that said it was due. There is no excuse for me not putting in on
the calendar to make sure it was completed on time, but some of these were due when I
was out of the office for extended training or deployments for mass fatality events to
other areas of the country.

        This office accepts responsibility for the downfalls brought forth the audit report
and has made corrections to all of the issues brought forth. 3 members of this office
including myself has take a grant management course which has given us the information
that we need to make the necessary corrections in our procedures. This has allowed us to
have a back up system for the management of the grant. The explanation of the draw
downs now is firmly understood and will be done when purchases are made. Although it


                                        - 15 -
appeared in the audit that several mistakes were made, the monies spent from the grant
were all accounted for. Documents for all the grant money were in order and all
equipment and expenditures were accounted for.

        All issues noted in the audit have been addressed and corrected at all levels of this
office. Reports and other necessary documents will be completed on time and all grant
monies in the future will be pulled down accordingly and progress reports and financial
reports will be completed during the time frame when expected. With our back up
personnel in place, in my absence there will not be an issue. Our office also plans
continuing education on grant writing and management to stay up with any new
guidelines that may change.

        Thank you for your time concerning this matter.




Sincerely;


/s/
Michael Henderson
Chief of Forensic Operations and Investigations
Jackson County Medical Examiners Office
660 E. 24th Street
Kansas City, Missouri     64108




                                        - 16 -
                                                                                  APPENDIX III



               U.S. DEPARTMENT OF JUSTICE RESPONSE

                                                     U.S. Department of Justice

                                                     Office of Justice Programs

                                                    Office of Audit, Assessment, and Management



                                                    Washington, D.C. 20531




September 15, 2011

MEMORANDUM TO:         Carol S. Taraszka
                       Regional Audit Manager
                       Chicago Regional Audit Office
                       Office of the Inspector General

                          /s/
FROM:                  Maureen A. Henneberg
                       Director

SUBJECT:               Response to the Draft Audit Report, Audit of the Office of Justice
                       Programs, National Institute of Justice Grant Awarded to the Jackson
                       County Medical Examiner’s Office, Kansas City, Missouri

This memorandum is in response to your correspondence, dated August 18, 2011, transmitting the
subject draft audit report for the Jackson County Medical Examiner’s Office (JCMEO). We consider the
subject report resolved and request written acceptance of this action from your office.
The report contains three recommendations and no questioned costs. The following is the Office of
Justice Programs’ (OJP) analysis of the draft audit report recommendations. For ease of review, the
recommendations are restated in bold and are followed by our response.

1.      We recommend that OJP ensure that JCMEO implements procedures to comply
        with OJP requirements that Federal Financial Reports (FFRs) accurately report
        grant-related expenditures posted to the grant accounting records during the
        reporting period.

        We agree with the recommendation. We will coordinate with JCMEO to obtain a copy of
        written procedures, developed and implemented, to ensure that Federal Financial Reports
        are accurate and reconcile with amounts recorded in JCMEO’s accounting records.



                                               - 17 -
2.      We recommend that OJP require that JCMEO establish procedures to ensure that
        all grant-related drawdown requests are based only on actual, recorded grant
        expenditures.

        We agree with the recommendation. We will coordinate with JCMEO to obtain a copy of
        written procedures, developed and implemented, to ensure that grant-related draw down
        requests are based on actual recorded grant expenditures.

3.      We recommend that OJP request that JCMEO implement a backup plan for grant
        managers to ensure all steps during the grant are timely and properly completed if
        the grant manager is unavailable for an extended period of time.

        We agree with the recommendation. We will coordinate with JCMEO to obtain a copy of
        written procedures, developed and implemented, to ensure that progress reports and other
        grant-related requirements are timely and properly completed, if the grant manager is
        unavailable for an extended period of time.

We appreciate the opportunity to review and comment on the draft audit report. If you have any
questions or require additional information, please contact Jeffery A. Haley, Deputy Director, Audit and
Review Division, on (202) 616-2936.

cc:     Jeffery A. Haley
        Deputy Director, Audit and Review Division
        Office of Audit, Assessment, and Management

        Diane Hughes
        Office Director, Office of Operations
        National Institute of Justice

        Alan Spanbauer
        Grant Manager
        National Institute of Justice

        Louise M. Duhamel
        Acting Assistant Director
        Audit Liaison Group
        Justice Management Division

        OJP Executive Secretariat
        Control Number 20111552




                                                 - 18 -
                                                              APPENDIX IV


              OFFICE OF THE INSPECTOR GENERAL
             ANALYSIS AND SUMMARY OF ACTIONS
               NECESSARY TO CLOSE THE REPORT

      The OIG provided a draft of this audit report to the Office of Justice
Programs (OJP) and the Jackson County Medical Examiner’s Office (JCMEO).
JCMEO’s response is incorporated in Appendix II of this final report, and OJP’s
response is incorporated in Appendix III. The following provides the OIG
analysis of the response and summary of actions necessary to close the report.

Recommendation Number

1.   Resolved. Both JCMEO and OJP concurred with our recommendation
     to ensure that JCMEO implements procedures to comply with OJP
     requirements that Federal Financial Reports accurately report grant-
     related expenditures posted to the grant accounting records during the
     reporting period. OJP stated that it will coordinate with JCMEO to
     obtain a copy of written procedures, developed and implemented, to
     ensure that Federal Financial Reports are accurate and reconcile with
     amounts recorded in JCMEO’s accounting records.

     This recommendation can be closed when we receive a copy of the
     procedures implemented to ensure that the grantee’s Federal Financial
     Records are based on actual expenditures, as recorded in the grant
     accounting records.

2.   Resolved. Both JCMEO and OJP concurred with our recommendation
     to ensure that drawdowns are based on actual expenditures as
     recorded in the grant accounting records.

     This recommendation can be closed when we receive a copy of the
     procedures implemented to ensure that the grantee’s drawdown
     requests are based on actual expenditures, as recorded in the grant
     accounting records.

3.   Resolved. Both JCMEO and OJP concurred with our recommendation
     to ensure that progress reports and other grant-related requirements
     are timely and properly completed, if the grant manager is unavailable
     for an extended period of time.

     This recommendation can be closed when we receive a copy of the
     procedures implemented to ensure that reports and other grant-
     related requirements are timely and properly completed, if the grant
     manager is unavailable for an extended period of time.

                                   - 19 -
